No.
IN THE

'upreme Court of the tiniteb Otateo
LOUISIANA HEALTH SERVICE & INDEMNITY CO.,
DOING BUSINESS AS BLUE CROSS BLUE SHIELD OF LOUISIANA,
Petitioner,
v.

ENCOMPASS OFFICE SOLUTIONS, INC.,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on August 14, 2019, I caused three copies of the Petition for a Writ of Certiorari
in this case to be served by first-class mail, postage prepaid, on counsel of record for
all parties as set forth below. I also caused an electronic copy of the brief in PDF
format to be served on counsel of record for each party in this case. I further certify
that all persons required to be served have been served.

Jennifer R. Ecklund
William Lowell Banowsky
Andrew Christian Cookingham
Richard Barrett Phillips, Jr.
Reed Cullen Randel
THOMPSON & KNIGHT, L.L.P.
1722 Routh Street, Suite 1500
1 Arts Plaza
Dallas, TX 75201
Email: jennifer.ecklund@tklaw.com
Email: bill.banowsky@tklaw.com
Email: andrew.cookingham@tklaw.com
Email: rich.phillips@tklaw.com
Email: reed.randel@tklaw.com

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel of Record for Petitioner Louisiana
Health Service & Indemnity Co.

2

